                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM




                  We initiated an investigation after a proactive review identified that a grantee',may have
          misstated the cost share reporting on an NSF grant2and a material shortfall in the cumulative cost
          share related to the award may exist. We asked the grantee to review past cost share certifications
          and provide explanations related to cumulative cost share on the award. The grantee reported initial
          inconsistencies in reporting cost share due to lack of subcontractor reporting. The grantee also
          reported that current cost share reporting is correct and there is no apparent cost share shortfall.

                    Accordingly, this case is closed.




NSF OIG Form 2 ( I 1/02)
